BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
, United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Erica
Yvonne Sheppard v. Lorie Davis, Director, Texas
Department of Criminal Justice, Correctional
Institutions Division, was sent via Two Day Service to
the U.S. Supreme Court, and Two Day Service and email to the following parties listed below, this 21st day
of December, 2020:
Matthew Hamilton Frederick
Deputy Solicitor General
Office of the Solicitor General for the State of Texas
209 W. 14th Street
Austin, TX 78701
matthew .frederick@oag. texas. gov
Tina J. Miranda
Assistant Attorney General
Office of the Attorney General
Financial Litigation & Charitable Trusts Division
P.O. Box 12548
Capitol Station
Austin, TX 78711-2548
(512) 936-1400
tina.miranda@oag.texas.gov
Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
' Washington, DC 20005

William Alan Wright
Counsel of Record
Kilpatrick Townsend & Stockton L.L.P.
Suite 4400
2001 Ross Avenue
Dallas, TX 75201
(214) 922-7131
alan.wright@kilpatricktownsend.com
Kevin M. Bell
Kilpatrick Townsend & Stockton L.L.P.
Suite 600
1400 Wewatta Street
Denver, CO 80202
(303) 571-4321
kbell@kilpatricktownsend.com
Counsel for Petitioner

All parties required to be served have been served.

I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on December 21, 2020.

nna J.

woii )

)

Becker Gallag'her Lega!Pu': hing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

V

